                         Office of Inspector General
                         Legal Services Corporation



Inspector GeneraJ
Jeffrey E. Schanz

3333 K Street, NW, 3rd Floor
Washington, DC 20007-3558
202.295.1660 (p) 202.337.6616 (f )
wwwooig.lsc.gov

           March 30, 2012



           Mr. Ben Thomas Cole, II
           Executive Director
           North Mississippi Rural Legal Services
           5 County Rd 1014
           PO. Box 757
           Oxford , MS 38655-0767

           Dear Mr. Cole:

           Enclosed is the Office of Inspector General's (OIG) final report of our audit on Selected
           Internal Controls at North Mississippi Rural Legal Services. The OIG has reviewed your
           comments on the findings and recommendations contained in a draft of this report and
           made the following determinations.

           The corrective actions planned or taken are responsive to all 12 of the
           recommendations included in the final report. Actions taken in response to the
           Recommendations 1, 2, 4, 5, 7 and 8 are sufficient and the recommendations are
           considered closed . The Recommendations 3, 6, and 9 through 12 will remain open until
           all actions have been completed and the OIG is notified in writing .

           We thank you and your staff for the cooperation and assistance you provided us.

           Sincerely,




         ~;;"'~
           Inspector General

           Enclosure

           cc:      James Sandman
                    President, Legal Services Corporation



                                                                                      =ILLSC
                                                                                      II     Amcric..:. "anne. Fot Eqd Jwriu
     LEGAL SERVICES CORPORATION
     OFFICE OF INSPECTOR GENERAL



   REPORT ON SELECTED INTERNAL
           CONTROLS



NORTH MISSISSIPPI RURAL LEGAL SERVICES,
                   INC.
               RNO 625040




            Report No. AU12-02

               March 2012

              www.oig.lsc.gov
                            EXECUTIVE SUMMARY

The Legal Services Corporation (LSC) Office of Inspector General (OIG)
assessed the adequacy of selected internal controls in place at North Mississippi
Rural Legal Services, Inc. (NMRLS or grantee) related to specific grantee
operations and oversight. Audit work was conducted at the grantee’s main office
in Oxford, Mississippi and at LSC headquarters in Washington, DC. The on-site
fieldwork was conducted from September 12 through 16, 2011.

Although some controls need to be strengthened, internal controls reviewed at
North Mississippi Rural Legal Service, Inc. were generally adequate as the
controls related to specific grantee operations and oversight, including program
expenditures, fiscal accountability, and compliance with selected LSC
regulations. Internal controls over compliance with LSC regulation 45 CFR
Part 1617 were adequate. The grantee’s disbursements tested were, for the
most part, adequately supported, allowable, and properly allocated to LSC. We
did find, however, several issues that need management attention, as discussed
more fully in the body of the report.

The OIG found that:
    One employee was paid with LSC funds to work in two positions for the
      grantee, but whose time records did not adequately support the time
      required of both positions.
    One attorney reviewed was performing duties under two separate grants
      but not keeping adequate time records showing the work performed under
      one of the grants.
    NMRLS charged more than $10,000 to LSC funds for the purchase of an
      accounting system without obtaining LSC’s prior approval. As a result, we
      are questioning $17,351 charged to LSC funds for the system.
    The grantee needed to formalize a cost sharing agreement it had with
      another LSC grantee and reconcile shared expenses more timely with the
      other LSC grantee.

Other issues noted include improving recordkeeping procedures for donated and
disposed of property; establishing controls over approval of travel actions for the
Executive Director; updating the grantee’s accounting manual to address
contracting policies and procedures; and updating the personnel manual to
reflect current practices and policies.

The OIG made 12 recommendations. Two of the recommendations address
controlling dual compensation and timekeeping. The OIG also recommends that
the grantee establish controls to ensure that major purchases are approved by
LSC in advance; formalize in writing a shared expense agreement with another
LSC grantee and obtain monies owed by the other grantee; and properly
document donated assets and the disposal of assets. Two recommendations
address improving controls over the Executive Director’s travel. Other

                                         i
recommendations suggest that the grantee’s policies and procedures be
strengthened by including the policies used for contracting in the accounting
manual and by including current personnel practices in the personnel manual.

Summary of Grantee Comments:

NMRLS management agreed with the report’s findings and recommendations
except for two findings and the related questioned costs. First, grantee
management disagreed that the two positions—Statewide Network Administrator
and Operations Manager--were separate and required more than 40 hours per
week to perform. Second, NMRLS disagreed that the purchase of its automated
accounting software required approval from LSC.

Management stated that the two jobs were combined when the employee was
first hired as the Statewide Network Administrator. NMRLS management stated
that at the time the individual was hired, there was a “meeting of the minds
between NMRLS and the employee” that the individual would work both positions
for a total of 40 hours per week for the agreed to salary. Grantee management
stated that the employee, who was paid with LSC funds to work in two positions
for the grantee, was not required to maintain time records to support the time
required to fulfill the duties of both positions.

In disagreeing with the OIG’s finding that, because of the cost, the grantee’s
accounting system required LSC approval, NMRLS stated that the purchase was
not a single purchase but three separate purchases of individual items, each of
which was under $10,000. The grantee also stated that even if a purchase of
several related items combined exceeded the $10,000 threshold, prior approval
would not be required if the individual costs were below $10,000. It was the
grantee’s position that the OIG misinterpreted LSC regulations and the PAMM,
and thus the accounting system acquisition did not require LSC approval.

OIG Overall Evaluation of Grantee’s Comments

The OIG considers the grantee’s actions planned and taken to be responsive to
all 12 of the recommendations. Recommendations 1, 2, 4, 5, 7 and 8 are
considered closed. Recommendations 3, 6, and 9 through 12 will remain open
until such time as written notification is received by the OIG that all actions have
been completed.

In regard to the two positions performed by the same employee, the unique
aspects of the combined positions of Statewide Network Administrator and
Operations Manager were not adequately documented at the time of audit. A
formal job description was not prepared. Management’s comments indicated
that there was a meeting of the minds as to what the combined jobs would entail
and that both positions would only require a total of 40 hours per week, also not
documented. The only document that management presented to support its

                                         ii
position was a payroll change notice that listed the jobs as a network
administrator and a one-third time operations manager, and the salary for each.
The payroll change notice did not indicate that both jobs would only take a total
of 40 hours per week to accomplish or that the jobs were merged into a single
job. NMRLS management has since developed a formal job description for the
position.

However, grantee management is ultimately responsible for determining the
positions necessary and to set the job responsibilities and salary for each
position. Since NMRLS management has stated in its written comments that it
was the intent from the beginning that the combined positions be viewed as a
single position, requiring a 40-hour work week, the OIG has accepted
management’s statement and will not question costs related to this matter.

The OIG disagrees with NMRLS’ comments addressing the purchase of its
accounting system. The OIG believes it has interpreted the LSC regulations and
the PAMM correctly.      While the grantee did make three purchases, the
purchases were to obtain an individual item—an accounting system. Also, the
items purchased were not simply related items, they were components of the
individual item that were necessary for the system to work properly.
The OIG will forward the questioned cost to LSC management for review and
action.




                                       iii
                                      TABLE OF CONTENTS

INTRODUCTION ............................................................................................ 1

OBJECTIVE .................................................................................................... 1

SCOPE AND METHODOLOGY...................................................................... 2

OVERALL EVALUATION ................................................................................ 3

AUDIT FINDINGS ........................................................................................... 3

    COMPENSATION FOR OCCUPYING MULTIPLE POSITONS ................ 3
        Recommendation 1 ......................................................................... 4
        Grantee Comments ....................................................................... 4
        OIG Evaluation of Grantee Comments ........................................... 5

    TIMEKEEPING .......................................................................................... 6
         Recommendation 2 ......................................................................... 6
         Grantee Comments ........................................................................ 6
         OIG Evaluation of Grantee Comments ........................................... 6

    PURCHASE REQUIRING LSC’S PRIOR APPROVAL .............................. 7
        Recommendation 3 ......................................................................... 7
        Grantee Comments ........................................................................ 7
        OIG Evaluation of Grantee Comments ........................................... 7

    RECONCILING SHARED EXPENDITURES ............................................. 8
        Recommendations 4 - 5 .................................................................. 9
        Grantee Comments ........................................................................ 9
        OIG Evaluation of Grantee Comments ........................................... 9

    VALUING AND DISPOSING of ASSETS .................................................. 9
         Recommendation 6 ......................................................................... 10
         Grantee Comments ........................................................................ 10
         OIG Evaluation of Grantee Comments ........................................... 10

    APPROVING THE EXECUTIVE DIRECTOR’S EXPENSES ..................... 10
        Recommendations 7 - 8 .................................................................. 11
        Grantee Comments ........................................................................ 11
        OIG Evaluation of Grantee Comments ........................................... 11
  DOCUMENTING AND ENFORCING POLICIES AND PROCEDURES .... 11
    Contracting ........................................................................................... 11
      Recommendation 9 ......................................................................... 12
      Grantee Comments ........................................................................ 12
      OIG Evaluation of Grantee Comments ........................................... 12

      Updating the Personnel Manual ........................................................... 12
        Recommendations 10 - 12 .............................................................. 13
        Grantee Comments ........................................................................ 13
        OIG Evaluation of Grantee Comments ........................................... 13

APPENDIX I – GRANTEE MANAGEMENT COMMENTS
                                    INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at North Mississippi Rural Legal
Services, Inc. (grantee) related to specific grantee operations and oversight. The on-
site fieldwork was conducted from September 12 through 16, 2011. Documents
reviewed pertained to the period January 1, 2009 through August 31, 2011. Our work
was conducted at the grantee’s administrative office in Oxford, Mississippi and at LSC
headquarters in Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee “…is required
to establish and maintain adequate accounting records and internal control procedures.”
The Accounting Guide defines internal control as follows:

      [T]he process put in place, managed and maintained by the
      recipient’s board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee “must rely upon
its own system of internal accounting controls and procedures to address these
concerns” such as preventing defalcations and meeting the complete financial
information needs of its management.

                                      OBJECTIVE

The overall audit objective was to assess the adequacy of selected internal controls in
place at the grantee as the controls related to specific operations and oversight,
including program expenditures, fiscal accountability, and compliance with selected LSC
regulations. Specifically, the audit evaluated selected financial and administrative areas
and tested the related controls to ensure that costs were adequately supported and
allowed under the LSC Act and LSC regulations. In addition, the audit examined the
grantee’s involvement in class action lawsuits and grantee processes to assess whether
controls were designed in a manner expected to ensure compliance with the LSC Act
and the selected LSC regulations. However, the objective was not to reach a
conclusion on compliance with any specific regulation.




                                            1
                            SCOPE AND METHODOLOGY

To accomplish the objective, controls over disbursements, internal management
reporting and budgeting, selected LSC regulations, and employee benefits and
reimbursements were reviewed and tested. To obtain an understanding of the internal
controls over these areas, grantee policies and procedures were reviewed, including
manuals, guidelines, memoranda, and directives setting forth current policies. Grantee
officials were interviewed to obtain an understanding of the internal control framework,
and management and staff were interviewed as to their knowledge and understanding
of the processes in place. We assessed the reliability of computer generated data
provided by the grantee by reviewing source documentation for the entries selected for
review. We determined that the data were sufficiently reliable for the purposes of this
report.

To test the controls and to test the appropriateness of expenditures and the existence of
adequate supporting documentation, disbursements from a judgmentally selected
sample of employee and vendor files were reviewed. The sample of 189 transactions
totaling $124,078 represented 5.3 percent of the $2.35 million the grantee spent during
the period January 1, 2010, through August 31, 2011. To assess the appropriateness
of expenditures, we reviewed invoices, vendor lists, and general ledger details. The
appropriateness of those expenditures was evaluated on the basis of the grant
agreements, applicable laws and regulations, and LSC policy guidance.

To evaluate internal controls over internal management reporting and budgeting, the
grantee’s system and processes were compared to those detailed in the Fundamental
Criteria of an Accounting and Financial Reporting System (Fundamental Criteria)
contained in the Accounting Guide. To review internal controls over compliance with
LSCs regulations on Class Actions (45 CFR Part 1617), applicable reports were
reviewed, and staff members were interviewed to determine if the controls were
designed in a manner to ensure compliance with the provisions of the LSC regulation.

The on-site fieldwork was conducted from September 12 through 16, 2011. Documents
reviewed pertained to the period January 1, 2009 through August 31, 2011. Our work
was conducted at the grantee’s administrative office in Oxford, Mississippi and at LSC
headquarters in Washington, DC.

This review was limited in scope and not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations or compliance with
LSC regulations. This audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that the audit be planned and
performed to obtain sufficient, appropriate evidence to provide a reasonable basis for
the findings and conclusions based on the audit objectives. The OIG believes the
evidence obtained provides a reasonable basis for the findings and conclusions based
on the audit objectives.




                                           2
                                       OVERALL EVALUATION

Although some controls need to be strengthened, internal controls reviewed at North
Mississippi Rural Legal Service, Inc. were generally adequate as the controls related to
specific operations and oversight in use at the time of the audit, including program
expenditures, fiscal accountability, and compliance with selected LSC regulations.
Internal controls over compliance with LSC regulation 45 CFR Part 1617 were
adequate. Disbursements tested were, for the most part, adequately supported,
allowable, and properly allocated to LSC. We did find, however, several issues that
require management attention.

One employee was paid with LSC funds to work in two positions for the grantee, but
time records did not adequately support the time required of both positions. One
attorney reviewed was performing duties under two separate grants but not keeping
adequate time records showing the work performed under one of the grants.

The grantee did not obtain LSC’s prior approval for a purchase exceeding $10,000 in
LSC funds. We are questioning $17,351 charged to LSC funds because NMRLS did
not obtain LSC’s prior approval for the purchase of an accounting system that exceeded
$10,000 in LSC funds. The grantee also needed to formalize a cost sharing agreement
with another LSC grantee and reconcile shared expenses more timely with the other
LSC grantee.

Other issues noted included improving recordkeeping procedures for donated and
disposed of property; establishing controls over approval of travel actions for the
Executive Director; updating the grantee’s accounting manual to address contracting
policies and procedures; and updating the personnel manual to reflect current practices
and policies.

                                            AUDIT FINDINGS

COMPENSATION FOR OCCUPYING MULTIPLE POSITIONS

One employee was paid with LSC funds to work two positions for the grantee, but time
records did not adequately support the time required of both positions. The employee
was holding two separate positions—Network Administrator and Operations
Manager1—and being paid a salary for each. However, the number of hours recorded
as worked did not support the total amount paid. The individual would have to work on
average 53-1/3 hours per week to do both jobs. For the period January 5, 2009 to
August 26, 2011, time records indicate that the individual worked on average,




1
  The Network Administrator position was a full-time, 40 hour per week position. The Operations Manager position
was a one third time, 13 1/3 hours per week, position. To fulfill the requirements of both jobs would require one
individual to work 53 and 1/3 hours per week.


                                                       3
40.12 hours per week in 2009, 40.86 in 2010, and 40.72 in 2011 for a total of 5,595
hours rather than the 7,360 hours required for both jobs. This resulted in a shortage of
1,765 hours and an estimated overpayment of $30,9932 for the period reviewed.

This dual responsibility situation has been in place since 2004 when the grantee hired
its Operations Manager to be the Network Administrator and allowed him to keep his
position as Operations Manager on a one-third time basis. Adequate controls were not
put in place at that time to ensure that the individual worked sufficient time to support
being paid for both positions and that the time and type of work were fully documented.

Setting salaries and establishing job responsibilities for a specific position are
management’s responsibility. However, fully documenting significant decisions or
unusual circumstances provides better controls over resources and helps ensure
expectations are known and met.

Recommendation 1: The Executive Director should:

    a. Assess whether the separate positions of Network Administrator and Operations
       Manager should stay as is, or whether the two positions should be merged into
       one full-time position with an appropriate overall salary.

If one person continues performing the full duties of both positions:

    b. Establish adequate controls to ensure that said person is working the appropriate
       amount of time to support the total amount paid when working more than one job;

    c. Develop procedures to ensure timekeeping records are prepared in sufficient
       detail to document the work performed to meet the requirements of each position
       and the total salary paid.

Grantee Comments: Grantee management disagreed with the finding that an
employee who was paid with LSC funds to work in two positions for the grantee did not
have adequate time records to support the time required to fulfill the duties of both
positions. Management stated that the two jobs were combined when the employee
was first hired as the Statewide Network Administrator. Management stated that a
single job description was not formally created in writing, but a payroll change notice
reflected the dual positions and the requisite salaries. NMRLS management stated that
at the time the individual was hired, there was a “meeting of the minds between NMRLS
and the employee” that the individual would work both positions for a total of 40 hours
per week for the agreed to salary. Grantee management stated that the employee was
not an attorney or paralegal and thus not strictly required to maintain detailed time
records under 45 CFR Part 1635.3(b). The employee was only required to account for


2
 Since the grantee did not maintain records to show how much time was spent performing each job, we used a
weighted average to estimate a single hourly rate. Specifically, we combined the annual salaries for both positions
and divided that amount by the number of hours that should have been used to perform both jobs.


                                                          4
at least 40 hours per week for pay purposes. The full text of grantee management’s
comments can be found at Appendix I.

OIG Evaluation of Grantee Comments: The unique aspects of the combined position
of Statewide Network Administrator were not adequately documented at the time of
audit. Management indicated that a single job description was not formally prepared in
writing. Management’s comments also indicated that there was a meeting of the minds
as to what the combined job would entail and that both positions would only require a
total of 40 hours per week, also not documented. The only document that management
presented was a payroll change notice that listed the jobs as a network administrator
and a one-third time operations manager, and the salary for each. Nothing on the
payroll change notice indicated that the expectation was that both jobs would only take
a total of 40 hours per week to accomplish or that the jobs were merged into a single
job. As a result, there is not adequate documentation for the OIG to rely upon.

The OIG notes that the Statewide Network Administrator position was represented as a
full-time position. The grantee did not provide any support to the OIG indicating the
salary was reduced for this position to offset the time that would not be available in a
40 hour work week to fulfill the duties of a full-time Statewide Network Administrator
who was working one third of the time as an Operations Manager. Hiring an individual
into a full-time position, and then paying that individual an additional third of a full-time
salary to accomplish additional duties of a different position on its face requires an
individual to work more hours to accomplish both jobs. Had management taken the
time to prepare and document a formal job description for the newly created position
when it was created, questions about the position could have been readily answered.
NMRLS management has since developed a formal job description for the position.

NMRLS management is correct in that the employee is not an attorney or paralegal
subject to LSC’s timekeeping regulation. However, one of the positions the employee
occupies—Statewide Network Administrator—is shared with Mississippi Center for
Legal Services (MCLS) which pays 60 percent of the costs associated with that position.
It is therefore important that the time used to perform the Statewide Network
Administrator duties be tracked so that MCLS is able to verify that it is receiving and
only paying for the services agreed to. Better timekeeping would be required to ensure
that the individual is providing the services necessary to fulfill the duties of both
positions.

However, grantee management is ultimately responsible for determining the positions
necessary and to set the job responsibilities and salary for each position. Since
management has stated in its written comments that it was the intent from the beginning
that the combined positions were to be viewed as a single position, requiring a 40 hour
work week, the OIG will accept management’s statement and not question costs related
to this matter. Also, since NMRLS management has developed a formal job description
for the position, management’s actions taken are responsive to Recommendation 1 and
the OIG considers the recommendation closed.




                                             5
TIMEKEEPING

One attorney was performing duties under two separate grants, but not keeping
adequate time records. One full-time attorney paid using LSC funds was also paid for
part-time work with funds from a University of Mississippi grant, yet time spent working
on the University of Mississippi grant was not always recorded in the grantee’s
timekeeping system.

The duties required of the two grants would require one individual to work 48 hours per
week during the University of Mississippi’s 17-week fall and spring semesters to meet
the minimum number of hours for each position and to support the salary paid, 40 hours
per week as Managing Attorney for NMRLS and 8 hours per week for the University of
Mississippi. The attorney’s timekeeping records, however, did not support working an
average of 48 hours during the 17-week fall and spring semesters for the school years
2009-2010 and 2010-2011. The timekeeping records appear to support the full-time
work that LSC funds, but are significantly short in hours recorded to support the
University of Mississippi grant.

The attorney stated that she did not record the majority of her time attributable to the
University of Mississippi grant because that grant did not require it. The attorney also
stated that when she did record applicable time she likely would have identified it as
University time.    She also stated that in addition to working on the University of
Mississippi grant during regular hours, she worked evenings and weekends as well.

LSC’s timekeeping requirements are described in 45 CFR, Part 1635. Section 1635.3
requires all grantees to require their attorneys and paralegals to account for the time
spent on each case, matter, or supporting activity, whether funded by LSC or by other
sources. Keeping accurate time records helps improve accountability for all funds used
by the grantee, ensures accurate allocation of expenditures, and helps ensure
compliance with laws and regulations.

Recommendation 2:      The Executive Director should ensure that timekeeping records
are prepared in accordance with 45 CFR, Part 1635 for all attorneys and paralegals.

Grantee Comments: Grantee management agreed with Recommendation 2, and
stated that the attorney is now keeping track of her time in accordance with LSC
requirements and that the Director of Litigation is reviewing the time reports of all staff to
ensure proper time recording. The full text of grantee management’s comments can be
found at Appendix I.

OIG Evaluation of Grantee Comments: Grantee actions taken are responsive to
Recommendation 2 and the recommendation is considered closed.




                                              6
PURCHASE REQUIRING LSC’S PRIOR APPROVAL

The grantee did not obtain LSC’s prior approval for the purchase of its accounting
software for which over $10,000 was charged to LSC funds. The total cost of the
purchase was $18,864 with $17,351 allocated to LSC funds. The acquisition was made
in six increments with less than $10,000 charged to LSC funds for each increment.
Since the total acquisition was over $10,000, prior LSC approval was required.

LSC’s Property Acquisition and Management Manual (PAMM) Section 2(a),
Acquisitions, requires grantees to “treat a purchase or lease of related property as a
single acquisition when the property can be readily obtained through a single contract
with a single source.” Further, Section 3(d) of the PAMM states:

      A recipient using more than $10,000 of LSC funds to acquire an
      individual item of personal property must request and receive LSC’s
      prior approval pursuant to 45 CFR 1630.5(b)(2), whether or not the
      acquisition is to replace existing property, before making the
      expenditure.

As a result, the OIG is questioning $17,351 charged to LSC funds for the purchase of
the accounting software as unallowable costs within the meaning of 45 CFR §§ 1630.2
and 1630.5. The OIG will refer these costs to LSC management for review and action.

Recommendation 3: The Executive Director should establish and follow acquisition
policies and procedures that ensure required LSC approvals are obtained before
making purchases.

Grantee Comments: NMRLS management disagreed with the finding but agreed with
the recommendation. NMRLS management disagreed with the OIG’s interpretation of
45 CFR Part 1630 and the PAMM and stated that the purchase of the automated
accounting software was not a single purchase but three separate purchases each of
which was under $10,000. Grantee management stated that even if a purchase of
several related items combined exceeded the $10,000 threshold, prior approval would
not be required if the individual costs were below $10,000.          Thus, grantee
management’s position was that the purchase was in accordance with LSC’s PAMM
and did not need LSC’s prior approval before making the purchase. NMRLS
management disagreed with the $17,351 in questioned costs for not obtaining LSC’s
prior approval before purchasing its accounting system. The full text of grantee
management’s comments can be found at Appendix I.

OIG Evaluation of Grantee Comments: NMRLS management planned actions are
responsive to Recommendation 3. The recommendation will remain open until all
management actions are completed and the OIG is notified in writing of such.

The OIG disagrees with NMRLS management that the acquisition of its accounting
software was three separate purchases of individual items each using less than $10,000



                                          7
of LSC funds and thus not subject LSC’s prior approval before purchasing. The OIG
believes that the acquisition of the software was a purchase of an individual item—an
accounting system—and that the three purchases were more than related items, but
components necessary for the system to work properly. The grantee’s contract for the
accounting system included such items as software, training, set up, transfer of data
and remote consulting, all of which were necessary for the system to work as desired.
This would be similar to a piece of equipment that required installation costs and
transportation expenses. Although three different bills may be received, the cost of the
one item of equipment would be the combined total of the cost of the equipment, the
installation cost, and the transportation expense, all necessary for the equipment item to
be in place and operate properly. We believe this is true of the accounting system, the
parts purchased were necessary components of an individual item—an accounting
system--to work. We also believe that our interpretation is consistent with LSC’s
responsibilities to ensure accountability and the efficient use of funds, 66 Federal
Register 47690 (September 13, 2001), and “to act as a steward, ensuring the public
funds it is entrusted to distribute are used for the purpose and in the manner which
Congress made them available.” 66 Federal Register 47692 (September 13, 2001).
Therefore, we are questioning the $17,351 charged to LSC funds and are referring this
issue to LSC management for review and action.

RECONCILING SHARED EXPENSES

The grantee and Mississippi Center for Legal Services3 (MCLS) have an informal
arrangement to share statewide expenses related to three statewide employees4 and a
bi-annual joint conference. Delays in reconciling the shared expenses and even later
delays in reimbursing funds to the grantee have, in effect, resulted in an interest free
loan to MCLS for the past 3 years. As of our site visit in September 2011, the grantee
was owed $43,033 by MCLS for CY 2010 shared statewide expenses.

Costs related to the employees and associated expenses are shared using a basis that
reflects the percentage of the state poverty population each organization serves.
Thus, the grantee pays 40 percent and MCLS pays 60 percent of the shared expenses
based on the 2000 census. Costs are reconciled at the end of the year to reimburse the
organization that expended more than the agreed upon percentage. However, the
arrangement is informal.

While the reconciliation is conducted annually at year’s end, actual reimbursement
takes far longer. The grantee waited over a year before MCLS paid $22,575 it owed for
CY 2009 shared expenses, and as of our visit in September 2011, MCLS had not paid
the grantee $43,033 it was owed for CY 2010 shared expenses. According to grantee
management, they were unsure of when MCLS would reimburse it for the 2010
expenses. Formally documenting financial agreements helps ensure that both parties
are protected and can be used as a vehicle for obtaining timely payment of funds owed.

3
 Mississippi Center for Legal Services is an LSC grantee that serves southern Mississippi.
4
 The shared employees are Network Administrator, Litigation Director and Resource Development Director. The
Network Administrator is a grantee employee and the others are MCLS employees.


                                                      8
Recommendations: The Executive Director should:

Recommendation 4:       Seek immediate, full reimbursement for the monies owed as a
result of the shared expenses with MCLS.

Recommendation 5: Formalize the shared expenses arrangement with MCLS, and
expressly detail the expenses that will be shared, the formula for reimbursement, and a
detailed, regular and frequent schedule of reconciliation and payment.

Grantee Comments: Grantee management agreed with Recommendations 4 and 5.
The grantee has sought reimbursement for past funds owed under the cost sharing
arrangement, and has formalized the arrangement in a Memorandum of Understanding
with the Mississippi Center for Legal Services. The full text of grantee management’s
comments can be found at Appendix I.

OIG Evaluation of Grantee Comments: The grantee’s actions are responsive to
Recommendations 4 and 5, and the recommendations are closed.

VALUING AND DISPOSING OF ASSETS

The grantee’s recordkeeping procedures for donated and disposed property need
improvement. The fair market value of donated property received was not always
determined and the final disposition of assets was not documented.

According to the Operations Manager, he did not document the fair market value of
donations received, and believed that documenting the disposal of assets was not
required. He went on to state that donations recently received were antiquated and that
he did not recall establishing a fair market value for them. He also stated that recently
disposed assets were without value because they were unusable, but he did not provide
supporting documentation.

According to LSC’s Accounting Guide for LSC Recipients, donated property should be
recorded at fair market value when received. Also, nonexpendable items should be
properly depreciated. The Accounting Guide also requires, among other items, that
disposition information be documented as to date, method of disposal, and if sold, sale
price and the method to determine fair market value.

The grantee’s accounting manual does not address how to handle donated property,
including assigning a fair market value when received. The accounting manual does
address the fair market value of assets as a determining factor in the disposal process
where it distinguishes between assets with a fair market value above and below $5,000.




                                           9
Assigning fair market value to donated items helps ensure that assets with value are
properly controlled and entered in to the accounting record; and adequately
documenting the disposal of assets helps prevent misappropriation of assets.

Recommendation 6: The Executive Director should ensure that donated assets are
assigned their fair market value when they are acquired, and that disposals of assets
are properly documented.

Grantee Comments: Grantee management agreed with Recommendation 6 and
stated that it was in the process of updating its accounting manual at the time of our site
visit. Grantee management further stated that appropriate procedures are being
developed to ensure the proper valuation and disposal of donated property and will be
forwarded to the OIG upon approval by the Board of Directors. The full text of grantee
management’s comments can be found at Appendix I.

OIG Evaluation of Grantee Comments:          The grantee’s planned actions are
responsive to Recommendation 6. The recommendation will remain open until all
management actions are completed and the OIG is notified in writing of such.

APPROVING THE EXECUTIVE DIRECTOR’S EXPENSES

The Executive Director approved his own travel advances and expense
reimbursements, and was a co-signer on the travel-related checks payable to him. A
review of checks for 20 travel advances and related vouchers payable to the Executive
Director disclosed that all of the advances and 19 of the 20 travel vouchers were
approved by the Executive Director. In one instance, the Fiscal Manager properly
approved the Executive Director’s travel voucher. In addition, the Executive Director
was one of the two co-signers on all travel advances and voucher reimbursement
checks made payable to him.

Grantee management stated their belief that requiring a second signature in addition to
the Executive Director’s was a sufficient control to ensure the propriety of the
expenditure. However, grantee management stated that they instituted a new practice
starting in CY 2011 where the Fiscal Manager would review and approve the Executive
Director’s transactions. While this new practice should provide improved control, we
noted that six of the seven CY 2011 vouchers reviewed showed that the Executive
Director was the sole approver of his vouchers.

Although we found that the Executive Director’s expenditures tested were supported
and allowable, segregating duties so that individuals cannot approve payments to
themselves, or sign checks payable to themselves, helps reduce the potential, as well
as the appearance, of fraud or abuse.




                                            10
Recommendations: The Executive Director should:

Recommendation 7: Ensure that the policy requiring the Fiscal Manager to approve
transactions involving the Executive Director is in writing and consistently implemented.

Recommendation 8: Establish a policy preventing individuals from being a co-signer on
checks payable to themselves.

Grantee Comments: Grantee management agreed with Recommendations 7 and 8,
and stated that new procedures have been implemented to have the Fiscal Manager or
Litigation Director review and approve transactions involving the Executive Director, and
grantee management has implemented a policy to prevent check co-signers from
approving purchases they implement. Both procedures were presented to the Board of
Directors for approval and the approval was forwarded to the OIG. The full text of
grantee management comments can be found at Appendix I.

OIG Evaluation of Grantee Comments: The grantee’s actions taken are responsive
to Recommendations 7 and 8. The recommendations are considered closed.

DOCUMENTING AND ENFORCING POLICIES AND PROCEDURES

The grantee’s Accounting Manual and Personnel Manual need to be updated. The
grantee appeared to use reasonable procedures with regard to contracting, but those
procedures were not documented. Similarly, the grantee’s Personnel Manual was out
of date and did not reflect the policies and procedures currently in use.

       Contracting

Written procedures were not in place to describe and assign responsibilities for the
contracting process. The Executive Director acknowledged that their system of
contracting is informal, and that the only area documented is where the accounting
manual states that he is responsible for the contracting process including signing all
contracts. He described the contracting process as:

       Identifying a need
       Identifying a potential source/provider. This usually involves talking to other
        Legal Service providers to determine whether they have had a similar issue and
        if so, who they would recommend and at what cost
       Contacting the potential source for interest
       If interested, then describing the need
       Negotiating the terms, conditions and price.

According to the Fiscal Manager, NMRLS followed this process when the grantee
decided to replace its accounting software in 2009. The process, as described, is sole-
source because it does not include competition. Competition provides the grantee with
an additional level of product and price control over the process, and provides its


                                           11
stakeholders with greater confidence that the grantee’s resources are being used
efficiently. Without formal policies and procedures describing the processes, there is no
assurance that staff will follow a consistent approach with future procurements.

Recommendation 9: The Executive Director should formally document all significant
processes and procedures, including procedures for awarding and modifying contracts
and consulting agreements. The policies and procedures should describe the
contracting process, including the need to seek competition under certain
circumstances, and ensure that all modifications are in writing and approved.

Grantee Comments: Grantee management agreed with Recommendation 9 and
stated that procedures for awarding and modifying contracts and consulting agreements
are being drafted and will be forwarded to the OIG upon their approval by the Board of
Directors. The full text of grantee management’s comments can be found at Appendix I.

Evaluation of Grantee Comments: The grantee’s planned actions are responsive to
Recommendation 9. The recommendation will remain open until all management
actions are completed and the OIG is notified in writing of such.

     Updating the Personnel Manual

The Personnel Manual is part of the overall control system for every organization. The
manual is a vehicle to document and communicate policies and procedures that have a
direct impact on staff and, in many instances, the finances of the organizations. The
grantee’s Personnel Manual was out of date and did not reflect the policies and
procedures currently in use.

According to the Executive Director, the grantee’s Personnel Manual has been mostly
superseded by the Collective Bargaining Agreement (CBA). He also stated that the
union benefits have been extended to non-union staff for consistency in employee
benefits, and that this practice has been in place since the union contract was entered
into around 1992, before he became the Executive Director in 1999.

However, there are no formal policies implementing the extension of the CBA to non-
members and no procedures to resolve any issues where the CBA and Personnel
Manual may be in disagreement or one is silent. According to the Executive Director,
updating the Personnel Manual has not been a priority, especially since the CBA covers
most employees and most situations, and that non-union employees are allowed the
same benefits as described in the CBA.




                                           12
Recommendations: The Executive Director should:

Recommendation 10: Update the Personnel Manual to ensure that the policies and
procedures are current and do not conflict with the Collective Bargaining Agreement;

Recommendation 11: Establish procedures for resolving conflicts when the Personnel
Manual and CBA disagree or one is silent;

Recommendation 12: Obtain the Board of Director’s approval for the revised
Personnel Manual, and allow specific benefits of the Collective Bargaining Agreement to
be applied to non-union employees.

Grantee Comments: Grantee management agreed with Recommendation 10, 11 and
12. Grantee management stated that they will update the Personnel Manual to ensure
the policies and procedures are current and do not conflict with the Collective
Bargaining Agreement. Further, procedures will be established for resolving conflicts
that might arise between the two personnel documents if they disagree or one is silent,
and to formally allow CBA benefits to apply to non-covered employees. A copy of the
updated manual will be provided to the OIG once it is approved by the Board of
Directors. The full text of grantee management’s comments can be found at Appendix I.

OIG Evaluation of Grantee Comments:           The grantee’s planned actions are
responsive to Recommendations 10, 11 and 12. The recommendations will remain
open until all management actions are completed and the OIG is notified in writing of
such.




                                          13
                                                                                        · APPENDIX I
       NORTH MISSISSIPPI RURAL LEGAL SERVICES

  jj!6LSC                           ADMINISTRATIVE OFFICE                           1-800-898-8731
                                                                                    1-800-498-1804
                                        5 County Road 1014                     FAX: (662) 236-3263
  Ben Thomas Cole, 11                        P.O. Box 767
    Executive Director                                                       Ruby White
                                     Oxford, Mississippi 38655               Director of Litigation
    bcole@!zmrls.com              Websites: http://www.nmrls.com             rwhite@Jlmrls.com
                                   http://www.msle'lalservices.or'l

 VIA EMAIL AND U.S. MAIL

 March 15, 2012


Mr. Ronald D. Merryman
Assistant Inspector General forAudit
Office of Inspector General
Legal Services Corporation
3333 K Street, NW, 3'd Floor
Washington, DC 20007-3558

Grantee Name: North Mississippi Rural Legal Services
Grantee No.: 625040

RE: Grantee Response to Draft Report

Dear Mr. Merryman:

Attached are the comments of North Mississippi Rural Legal Services (NMRLS) in response to
the Office of Inspector General ' s (OIG) draft report on results of the on-site visit conducted
September 12 through 16, 2011. Our response addresses each recommendation made by the
OIG, and states the actions already taken or planned to be taken to implement the
recommendations.

Should you have any questions or need additional information, please advise.

Sincerely,


~?::~o~
Executive Director

cc: Hon. Willie J. Perkins, Sr.
    Board Chairman

BTC,Wghb
                          LSC -OIG DRAFT Report
                          Management Comments
                                   AUDIT FINDINGS

COMPENSATION FOR OCCUPYING MULTIPLE POSITIONS

Recommendation 1: The Executive Director should:

     a) Assess whether the separate positions of Network Administrator and Operations
        Manager should stay as is, or whether the two positions be merged into one full
        time position with appropriate overall salary.

If one person continues performing the full duties of both positions:

     b) Establish adequate controls to ensure that said person is working the appropriate
        amount of time to support the total amount paid when working more than one job;

     c) Develop procedures to ensure timekeeping records are prepared in sufficient
        detail to document the work performed to meet the requirements of each position
        and the total salary paid.

Grantee Comments

1.     Historical Perspective
        In order to place NMRLS' comments on this recommendation in the proper
       perspective, it is important to look at the history of the employee in question
       taking on dual responsibilities. The employee's original full time position was that
       of Operations Manager for NMRLS . He was very interested in computers, so
       NMRLS allowed him to develop his technology skills and assist the grantee with
       its early efforts to computerize its operations. He assisted in the implementation
       of the Kemp's Case Works case management system and became the primary
       troubleshooter. He later worked with a consultant in writing and administering
       three (3) technology initiative grants (TIG). They were the Statewide Web Site
       grant (TIG # 01048), the call center infrastructure grant (TIG # 02510), and the
       ASP grant (TIG # 01069).

       In early 2000, LSC proposed that the State of Mississippi be consolidated from
       six LSC funded programs into a statewide program. The statewide planning
       process resulted in a recommendation for a two program configuration which
       LSC accepted with the expectation that certain functions, and capacities be
       provided on a statewide level for economy. The statewide positions of Resource
       Developer, Litigation Director and Technology Network Administrator were
       identified . Thus, the two current LSC grantees emerged, North Mississippi Rural
      Legal Services (NMRLS) which serves the northern 40% (39 Counties) of the
      state, and Mississippi Center for Legal Services (MCLS) which covers the
      remaining 60% (43 Counties) of the state based upon the 2000 census figures.

      It was agreed by NMRLS and MCLS that statewide expenses for the said three
      positions would be paid on the 40/60 percent ratio based upon the percentage of
      poor people within each program's service area according to the census figures.
      Additionally, the program which houses the persons holding statewide positions
      would be paid by that program, including expenses associated with the position .
      Any amounts owed the other program would be reconciled and reimbursement
      made. This resulted in two persons (statewide litigation director and statewide
      resource developer) being placed in offices of MCLS, and the statewide network
      administrator (technology) located at NMRLS .

     The NMRLS employee in question applied for and was hired to fill the statewide
     network administrator position. However, NMRLS continued to need someone to
     perform the operations manager duties. He was allowed to continue to perform
     those duties in addition to those required of the network administrator. This was
     based upon the fact that he had previously taken on an increasing role as
     NMRLS' computer/technology administrator while simultaneously performing
     duties as operations manager. NMRLS agreed to allow him to perform both
     functions and receive the salary set for the statewide network administrator
     position, and one-third (1 /3) of the operations manager salary which he
     previously received . The meeting of the minds between NMRLS and the
     employee at the time he was hired as statewide network administrator was that
     he would work both positions for a total of 40 hours per week at the agreed upon
     salary.

2.   Positions Combined
     The Statewide Network Administrator/NMRLS Operations Manager position was
     combined when the employee was first hired as the Statewide Network
     Administrator. We combined the positions and paid $30,000.00 for network
     administrator duties and $10 ,687.67 (1/3 of prior salary) for operations manager
     duties. It's true that a single job description was not formally created in writing.
     However, the NMRLS payroll change notice form maintained by the accounting
     department and in the employee's personnel file reflects the dual positions and
     sets out the requisite salary for each . See Attachment No.1 . Thus, NMRLS has
     previously adopted the option set out in OIG Recommendation 1(a) that the two
     positions be merged into one full-time position with appropriate overall salary.

3.   Extra Hours Worked But Time Not Recorded
     The employee consistently works more than 40 hours per week performing both
     job duties. He usually stays at the office past the regular 9:00 to 5:00 office hours
     and regularly works weekends, usually on Saturdays. Additionally, he is often
     called at home to perform some type of computer/technology trouble shooting
                                           2
      which can be done using computer shadowing via remote access using team
      viewer. The employee understood that he would be paid for a total of 40 hours
      for the combined positions and therefore he only documented 40 hours per week.
      Therefore, he did not keep track or document the extra hours worked over and
      beyond 40 per week.

     In sum , there is no question that the employee and NMRLS agreed that the
     employee would work as the Statewide Network Administrator and also the
     NMRLS Operations Manager for an agreed upon salary for 40 paid hours per
     week. The documentation in the personnel file and the actions of both parties is
     consistent with the agreement. There is also no question that the employee
     worked full time and that the work was performed. The OIG report does not make
     a finding that the work was not performed. The only question seems to be the
     lack of a new written job description.

      The 1630 questioned cost procedure shouldn't be applied here. Under
      1630.3(a) costs are allocable to LSC if they are "reasonable and necessary for
     the performance of the grant or contract as approved by the Corporation". In
      addition , the costs must be "actually incurred in the performance of the grant or
     contract and the recipient was liable for payment". Here, costs were necessary
     and reasonable and actually incurred in the performance of the grant.
     Documentation was adequate and contemporaneous under 1630.3(a) (9) as the
     employees' work hours and salary were appropriately documented and paid . The
     grantee, however, did not create a new written job description . The lack of a
     written job description , given the other documentation of the agreement between
     the employee and NMRLS and the actions of the employee and NMRLS
     following the agreement, should not be the basis of a questioned cost finding
     under 1630.

4.   Non-Attorney/Paralegals Employee
     The NMRLS employee holding the position of statewide network administrator/
     NMRLS operations manager is neither an attorney nor paralegal. Therefore, he is
     not strictly required to provided a detailed accounting of his time as are attorneys
     and paralegals by 45 CFR Part 1635.3(b). However, NMRLS does require all full
     time staff to account for at least the 40 hours per week for which they are paid .
     The employee performed the work of both positions but only documented the
     requisite 40 hours per week.

5.   Conclusion
     For the reasons set out above, NMRLS asserts that it merged the two positions
     in question into one full time position at the time the employee accepted the
     position of Statewide Network Administrator with appropriate overall salary.
     Furthermore , the work was in fact performed as required for each position .
     Additionally, the OIG report did not find that the work was not performed
     [emphases added] . Lastly, the employee is neither an attorney nor paralegal,
                                           3
       therefore, he was not required to provide a detailed accounting of his time by 45
       CFR Part 1635.3(b).

 6.    Corrective Action
       NMRLS previously had a job description for the position of operations manager,
       and a job description for network administrator was developed at the time that
       position was created. NMRLS has now created a single job description which
       combines into one full time position the duties of Statewide Network
       Administrator/NMRLS Operations Manager. The job description is submitted
       herewith as Attachment No.2.


TIMEKEEPING

Recommendation 2: The Executive Director should ensure that timekeeping records
are prepared in accordance with 45 CFR Part 1635 for all attomeys and paralegals .

Grantee Comments

NMRLS management agrees with this recommendation by the OIG . Immediately
following the on site visit in September, 2011 , the Executive Director met with the
attomey in question to clarify the requirements of 45 CFR Part 1635. The attomey
immediately started and continues to record 100% of time spent and designates the
appropriate funding code associated with the work. The employee in question is a
managing attomey and under the NMRLS management structure, her time reports are
submitted to the NMRLS Litigation Director for review and approval. The Litigation
Director subsequent to the on site visit now reviews this and all employee's time reports
with a critical eye on reporting of work performed under applicable funding codes.

Additionally, NMRLS management has and will periodically review with management
level staff the reporting requirements of 45 CFR Part 1635. Also , it will conduct periodic
reviews of the timekeeping requirement with the entire NMRLS staff.


PURCHASE REQUIRING LSC's PRIOR APPROVAL

The draft OIG report makes a finding that the purchases of accounting software,
training , set up, data transfer, remote consulting and maintenance contract required
prior LSC approval. It is questioning the combined costs of $17,351 . The OIG relies on
the definition of "acquisition" in LSC's Property Acquisition and Management Manual
(PAMM) that grantees should "treat a purchase or lease of related property as a single
acquisition ... ." PAMM, Section 2(a). The OIG further relies on the prior approval
requirements found in 1630.5(b) (2) that prior approval is required "if the current
purchase price of any individual item of property exceeds $10 ,000" and Section 3(d) of

                                             4
the PAMM which requires prior approval if the program uses "more than $10,000 of LSC
funds to acquire an individual item of personal property ... "
NMRLS believes that the OIG is incorrectly interpreting the requirements of both 45
CFR 1630.5(b) (2) and section 3(d) of the PAMM. First, regulation 1630.5(b)(2) makes
clear that prior LSC approval is required when "[p]purchases and leases of equipment,
furniture, or other personal, non-expendable property, if the current purchase price of
any individual item of property exceeds $10,000." (Emphasis added.)
At the time that LSC published 1630.5, the preamble states:
         "The $10,000 threshold of subparagraph (b) (2) applies to individual items of
        personal property only. Corporation prior approval is no longer necessary for
        purchases and leases of individual items costing less than this amount, even if a
        purchase or lease of several related items with individual costs below $10,000
        has a combined cost which exceeds the threshold amount. However, the costs of
        acquiring such items must still meet the criteria of § 1630.3 of this part, including
       the requirement that such costs be reasonable and necessary to the
        performance of the grant or contract." [Emphasis added.] (See Vol. 62, No. 250,
       Federal Register, p. 68223 (December 31 , 1997).

Similarly, section 3(d) of the PAMM requires prior approval when a recipient uses
" ... more than $10 ,000 of LSC funds to acquire an individual item of personal property ... "
The preamble to section 3 states:
          LSC received a number of comments on the various aspects of this section,
         several of which indicated a significant misunderstanding of the proposed
         requirements. Specifically, several commenters objected to what they took to be
         LSC's proposal to require prior approval of aggregate acquisitions of over
         $10,000. However, LSC did not propose to require prior approval of aggregate
         acquisitions of over $10,000 , but rather, only to require certain minimum
         competition standards for such large acquisitions. Under both the proposed and
        this final PAMM, prior approval is required, as specified in 45 CFR part 1630, for
         individual item acquisitions of over $10 ,000, but not for aggregate acquisitions of
        over $10,000 ." (See Vol. 66, No. 178, Federal Register, p. 47691 (Sept. 13,
        2001 ).) [Emphasis added.]

Thus, it is clear that the prior approval requirements found in 1630.5(b) (2) and section
3(d) of the PAMM apply only to an "individual item" of property and "not for aggregate
acquisitions of over $10 ,000. "

Further, the preamble to 1630.5 states that:
       "Paragraph (b) of this section lists specific costs which reCipients may not charge
      to Corporation funds without the Corporation's written prior approval. Because
      this paragraph applies to costs charged to LSC funds only, recipients charging
      the entire amount of such costs to non-LSC funds do not need to seek the
      Corporation's prior approval. Where recipients charge part of the cost to LSC
      funds and part of the cost to non-LSC funds, Corporation prior approval is
      necessary when the amount charged to LSC funds exceeds one of the threshold
                                              5
       amounts in this paragraph ." (See Vol. 62, No. 250, Federal Register, p. 68223
       (December 31, 1997).)[Emphasis added .]

 The OIG incorrectly relies on the definition of "acquisition" in section 2(a) of the PAMM
to overrule the specific "individual item" of property language in the prior approval
sections of both 1630.5(b) (2) and section 3(d) of the PAMM. The word "acquisition" is
 not used at all in 1630.5(b) (2) which uses "purchases and leases" language. Similarly,
while "acquisition" is mentioned 43 times in the PAMM, the very, section that contains
the prior LSC approval requirement section 3(d) of the PAMM does not use "acquisition"
although it does state "to acquire an individual item of personal property." But to read
the word "acquire" to mean it applies to more than an individual item of personal
property would be to entirely ignore the "individual item" language . The definition of
"acquisition" in section 2(a) of the PAMM cannot be read to overrule the specific
language on prior approval found in 1630.5(b) (2) and section 3(d) of the PAMM.
Further, the clear distinction between "acquisition" and "individual item" was noted in the
preamble to the PAMM. "[T]he term "single acquisition" includes transactions in which
more than one item is procured in a single contract, while "individual item" does not."
See vol. 66, No. 178, Federal Register, p. 47690 (Thursday, September13, 2001.)

Thus, LSC grantees can purchase an individual item of personal property for less than
$10,000 and charge it to LSC funds (assuming the requirements of 1630.3 are met)
without obtaining LSC's prior approval and can purchase an individual item of personal
property for over $10,000, charge less than $10,000 to LSC and not be required to
obtain LSC's prior approval. Grantees can also purchase or lease several related items
with individual costs less than $10 ,000 but whose combined cost exceed $10,000,
without LSC's approval.

The total cost of the new accounting system and related purchases was $23,220.50
which was as follows:
       1. Software
               $ 8,530.04 - LSC Funds
               $ 5,868.95 - Non-LSC Funds
               $14,398 .99 - Total

      2.     Training , set up, transfer of data, remote consulting etc. = $6,689.00 -
             LSC Funds

      3.     Maintenance Contract = $2 ,132.51 - LSC Funds

      TOTAL amount charged to LSC Funds - $17, 351 .00


None of the above purchases involved "individual items" of personal property that
exceeded $10 ,000 charged to LSC. LSC's established past practice is consistent with
the language of the preamble to 45 CFR Part 1630.5 and the PAMM . NMRLS relied
                                            6
 upon LSC past practice when charging the purchases in the manner it did. Therefore, it
 believes LSC prior approval was not required . Thus, the $17,351 .00 charged to LSC
 funds should not be treated as a questioned cost.

 Recommendation 3: The Executive Director should establish and follow acquisition
 policies and procedures that ensure required LSC approvals are obtained before
 making purchases.

 Grantee Comments

NMRLS management is in agreement with this recommendation. It is in the process of
reviewing and updating , where necessary, its purchasing manual. It will assure
adequate procedures are in place to direct the staff on when LSC prior approval is
needed and the procedure to follow. The revised purchasing manual will be presented
to the NMRLS Board of Directors for approval and forwarded to the Office of The OIG
as verification of compliance with this recommendation .


RECONCILING SHARED EXPENSES

Recommendation 4: The Executive Director should seek immediate, full
reimbursement for the monies owed as a result of the shared expenses with MCLS .

Grantee Comments

NMRLS invoiced Mississippi Center for Legal Services (MCLS) for 2010 shared
expenses on April 13, 2011 and received payment on January 30, 2012.Some
adjustments made to the invoice and NMRLS received payment in the amount of
$41 ,854.48 as reimbursement for monies owed by MCLS for CY 2010 for shared
statewide expenses. NMRLS invoiced MCLS for 2011 shared statewide expenses but
has not received MCLS' invoice for this period . The invoices are expected to be
reconciled after the 2011 audit for both grantees has been completed .

Recommendation 5: The Executive Director should formalize the shared expenses
arrangement with MCLS , and expressly detail the expense that will be shared , the
formula for reimbursement, and a detailed , regular and frequent schedule of
reconciliation and payment.

Grantee Comments

NMRLS has entered into a written Memorandum of Understanding (MOU) with MCLS
which covers the period of November 1, 2011 through December 31 , 2012 . The MOU
formalizes the shared expenses arrangement with MCLS, and expressly details the
expenses that are shared, the formula for reimbursement, and sets up invoicing each
other on a monthly basis by the 10th of the month following the month in which work is
                                           7
 performed with payment to be made within 30 calendar days. A copy of the said MOU is
 submitted herewith as attachment No.3.


 VALUING AND DISPOSING OF ASSETS

Recommendation 6: The Executive Director should ensure that the donated assets are
assigned their fair market value when they are acquired, and that disposals of assets
are properly documented.

Grantee Comments

NMRLS was in the process of updating its accounting manual at the time of the on site
visit in September, 2011 . It agrees with the OIG recommendation concerning valuing
and disposing of assets. The Fiscal Manager will prepare and propose appropriate
procedures on how to handle donated property, including assigning a fair market value
when received . It will also address adequate documentation of the process and
procedure for the disposal of assets.

These sections of the accounting manual will be presented to the NMRLS Board of
Directors for review and approval and submitted to the Office of The OIG as verification
of compliance with this recommendation .


APPROVING THE EXECUTIVE DIRECTOR'S EXPENSES

Recommendation 7: The Executive Director should ensure that the policy requiring the
Fiscal Manager to approve transactions involving the Executive Director is in writing and
consistently implemented.

Grantee Comments

NMRLS management has developed a policy which requires the Fiscal Manager or the
Litigation Director to approve transactions involving the Executive Director. See
Attachment No . 4.

The policy will be presented to the Board of Directors for approval at the March 17,
2012 meeting . A copy of the policy as approved by the board will be immediately sent to
the OIG to supplement this response .

The policy as approved will be inserted in the appropriate sections of the NMRLS travel
policy and the NMRLS accounting manual and NMRLS management will assure that
this policy is consistently followed .


                                            8
 Recommendation 8: The Executive Director should establish a policy preventing
 individuals from being a cosigner on checks payable to themselves.

 Grantee Comments

NMRLS has implemented a policy which prevents individuals from being a cosigner on
checks payable to themselves. See Attachment No 4. This policy will be presented to
the Board of Directors for approval at the March 17, 2012 meeting. A copy of the policy
as approved by the board will be immediately sent to the OIG to supplement this
response.

The policy as approved will be inserted in the appropriate sections of the NMRLS travel
policy and the NMRLS accounting manual.

DOCUMENTING AND ENFORCING POLICIES AND PROCEDURES

Recommendation 9: The Executive Director should formally document all significant
processes and procedures, including procedures for awarding and modifying contracts
and consulting agreements. The policies and procedures should describe the
contracting process, including the need to seek competition under certain
circumstances, and ensure that all modifications are in writing and approved .

Grantee Comments

NMRLS management understands the need and benefits to be derived by having a
documented process and procedure for awarding and modifying contracts and
consulting agreements. It is in full agreement with the OIG recommendation and is in
the process of developing a written policy with appropriate procedures. The policy when
developed will be submitted to the NMRLS Board of Directors for approval and
forwarded to the Office of The OIG as verification of compliance with this
recommendation.

UPDATING THE PERSONNEL MANUAL

Recommendation 10: The Executive Director should update the Personnel Manual to
ensure that the policies and procedures are current and do not conflict with the
Collective Bargaining Agreement

Grantee Comments

The Executive Director will update the Personnel Manual to ensure that the policies and
procedures are current and do not conflict with the Collective Bargaining Agreement.
NMRLS will provide a copy of the updated Personnel Manual to the OIG as verification
of compliance with this recommendation .

                                           9
Recommendation 11: The Executive Director should establish procedures for resolving
conflicts when the Personnel Manual and CBA disagree or one is silent.

Grantee Comments

The Executive Director will update the NMRLS Personnel Manual and specifically
establish procedures for resolving conflicts when the Personnel Manual and CBA
disagree or one is silent. The procedure when established will be submitted to the OIG
as verification of compliance with this recommendation .

Recommendation 12: The Executive Director should obtain the Board of Director's
approval for the revised Personnel Manual, and allow specific benefits of the Collective
Bargaining Agreement to be applied to non-union employees.

Grantee Comments

The Executive Director will revise the Personnel Manual , and allow specific benefits of
the Collective Bargaining Agreement to be applied to non-union employees and obtain
approval by the NMRLS Board of Directors. A copy of the updated Personnel Manual
when approved by the NMRLS Board of Directors will be submitted to the OIG as
verification of compliance with this recommendation.




                                           10
                                      PAYROLL CHANGE NOTICE

              TO: PAYROLL DEPARTMENT
                   PLEASE ENTER THE FOLLOWING CHANGE(S)IN YOUR RECORDS TO TAKE
NAME:_
                   EFFECT__,_Tu
                              _ ll_" _ 1",= 2.,.O'=O',,2=:-_ _ _ _ __
                                        (DATE & TlWEl

POSITlONrrr                   Cla
                   EMPLOYEE _ _ __re _
                                     nce
                                       __(ThanlHin
                                           _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __


OFFICE:_'          SOCIAL SECURITY NO, _ _ _ _ _~-------,CLOCK NO,, _ _ _ _ _ __


HOME ADD]     THE CHANGE(S)
               Y   CHECK ALL APPLICABLE BOXES                                    FROM                                                  TO
HOMEPHO
               o DEPARTMENT
CELLPHOl'     :[] JOB                                                                                              1 ~t"-l.W ~, r~_    Ad uln ir, l. r..: t o r
               o SHIFT
               ORATE                                            $ .l ( .Ob~. O CJ                                  ~   40 • A6 7 . () :;
               Q                                          FT O p An~ t::i n n .                                    1   / ll tldt trlI'""
                                                          . · ~~l l lt~" Je !                                      ~)~   "! t U l .I.\) , l~       : .cC I..1g '."! l

              REASON FOR THE CHANGE(S)
                   o HIRED                                                            o   PROBATIONARY PEAIOD COMPLETED

                   o   RE,HIRED                                                       o   LENGTH OF SERVICE INCREASE
                                                                                                        "
               o PROMOTION                                                            o   AE·EVALUATION OF EXISTING JOB

               o DEMOTION                                                             o RESIGNATION
               o       TRANSFER                                                       o   RETIREMENT

               o MERIT INCREASE                                                       o LAYOFF
               o UNION SCALE                                                          o DISCHARGE
               o       LEAVE OF ABSENCE FROM _ _ _ _                      -:::-=____UNTlL _ _ _---,:=::-_ __
                                                                            (DATE)                                                    (DATE)

               o       OTHER      (EXPlAJN'_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

                           N (" l~ r k. . \d!Lin is   tr.:l t.('J l"             ~~     S3 UJ {., () J
                                                                                 (J $ iU,h S' . :';


                                                                                                                                               ,
                                                  ,                                               /;                                       /
                                                                                                                                                      ,,          '
                       CHANGE AUTHORIZED BY
                                                 I
                                                                    _.-.r. ... ) '~_7        (         ;   .           DATE
                                                                                                                                                              /
                                                                                                                                                                      ~l
                                                 -'                 -,.
                                            A'
                                                      ,


                                                            I
                                                                /         ; / t. -         ,. ,
                                                                                                 ..   ~~! ,/
                                                                                                               I                       "
                                                                                                                                                "j
                                                                                                                                               ."/, ' ,
                       CHANGE APPAOVED BY                                                                           DATE




                                     Attachment No. 1
            North Mississippi Rural Legal Services (NMRLS)
      Statewide Network AdministratorlNMRLS Operations Manager


 Location: NMRLS Administrative Office                              Date: March 1, 2012


 General Responsibilities:

The positions of Statewide Network Administrator and NMRLS Operations Manager are
merged into one position for purposes of payroll and clarity of management of
performance of duties. The statewide network administrator provides technology
functions on a statewide basis to tbe two LSC funded legal services programs in tbe State
of Mississippi. The legal services programs are North Mississippi Rural Legal Services
(NMRLS) and Mississippi Center for Legal Services (MCLS). Salary, support and fringe
benefits are jointly paid by MCLS and NMRLS based upon a formula agreed to by the
two organizations. Additionally, the employee provides services to NMRLS as set out in
its operations manager job description. Therefore, the separate job descriptions of each
position are merged into one full time position.

I. Statewide Network Administrator
JOB DUTI ES:
         I. Serve with NMRiS Executive Director, MCLS Executive Directors, and MLS
            Operations Managers as a member of the MLS technology committee
            representing the statewide technology project.
        2. Implement and maintain Wide Area Network/Local Area Network infrastructure
            - this includes but is not limited to: establishing a backup system and rotation,
            engaging in preventative maintenance (load balancing, performance monitoring),
            implementing appropriate security against intruders and virus infestation ,
            create/recommend a di saster recovery plan.
        3. Maintain MLS Statewide Phone System infrastructure, including Call Center
            component
        4. Implement and maintain Statewide ASP, including case management system
        5. Recommend additions/modifications/upgrades to network infrastructure.
        6. Coordinate statewide training for case management system.
        7. Create/recommend hardware and software standards.
        8. Ensure statewide email-at-the-desktop capability.
       9. Provide day to day technical support for WANILAN configuration
        10. Coordinate technology component of program meetings among the MLS
            programs.
        II. Assist in maintenance of state website.
        12. Other duties as required .

EXPERlENCE REQUIRED:
Three years of network support and maintenance with increasing responsibilities. Extensive
experience with network operating systems (Windows Server 2000 and up, Novell, 4.10 &

                             Attachment No. 2
up, Windows 951981NTI2000lXPlVistai 7) network configuration support, Citrix, Asterisk,
MS Word, WordPerfect, MS Access, MS Excel

EDUCATION:              Baccalaureate degree

ADDITIONAL REQUIREMENTS:
  • Team approach to meeting the needs ofthe MLS programs,
  • Is flexible and responsive to differing concerns and aptitudes,
  • Is organized and able to manage competing priorities,
  • Communicates well in written and verbal,
  • Able to communicate complex technical ideas in layman's terms,
  • Able to train others in the use of technology,
  • Must be able to travel to all MLS office sites.


II. NMRLS Operations Manager

JOB SUMMARY

The OPERATIONS MANAGER works under the direction of the EXECUTIVE
DIRECTOR. Responsible for identifying sources of supply and monitoring the use of all
materials used to conduct business. This includes developing procedures to monitor and
track inventory levels and usage. Monitors and coordinates information processing
procedures and analyzes data which reflects various aspects of business operations, and
performs other duties as assigned.

JOB DUTIES
      I. MATERIALS MANAGEMENT: reviews inventory and/or shipping reports
         or records for possible discrepancies; monitors distribution system of supplies
         and equipment to determine if materials are delivered to Branch Offices when
         required; monitors requisition process and inventory levels to evaluate
         purchasing and supply practices; inventories supplies to determine operating
         costs and to control stock shrinkage; negotiates prices, terms, and conditions
         for services and supplies with designated vendors; monitors changes in price
         or availability of supplies, equipment, or services required by NMRLS; places
         forms, records, correspondence, information on service providers, equipment
         price list or other material in correct location in a systematic file; classifies or
         sorts information or material according to standard methods of systematized
         arrangement; searches files or records for desired information on specific
         subjects (e.g., vendors or supplies or service contracts).

       2. FACILITIES OPERATION MANAGEMENT: inspects buildings, and
          facilities to determine their operational status; schedules, coordinates, and
          monitors the maintenance, service, and repair of facilities; reviews requests
          for maintenance or repair services to determine type) nature. and priority
          requests; meets with outside vendors or contractors to discuss equipment
         needs, specifications, and capabilities; negotiates lease agreements for office
         facilities.

     3. MANAGEMENT INFORMATION SYSTEMS: identifies the type and source
        of information and formats required for reports for comprehensive, accurate
        analyses, and reporting of operations data; identifies weaknesses, problems, or
        irregularities in collection or analysis of data for various aspects of business
        operations; interprets data for the purpose of identifying patterns, trends and
        irregularities in operations; coordinates the development of data processing
        systems to support Branch and Administrative office functions; monitors
        existing computer systems and programs for evidence of inaccuracies;
        provides advice concerning purchasing new computer equipment and/or
        software to improve data processing capabilities.

     4. PUBLIC AND CONMMUNITY RELATIONS: produces layouts and
        designs for brochures text for use in brochures or promotional material ;
        produces copies of brochures or promotional material using copier or printing
        equipment and prepare them for distribution.

     5. PERFORMS OTHER DUTIES AS ASSIGNED.

JOB SKILL REQUIREMENTS

     1. PROBLEM SOLVING: ability to evaluate and integrate data and
        information from multiple sources and integrated to formulate plans or
        recommendations.

    2. SCHEDULING AND COORDINATING ABILITIES: skill in making
       arrangements, scheduling work, and conducting and orchestrating activities.

    3. SPOKEN COMMUNICATION SKILLS : ability to organize and convey
       information in a concise fashion without loss of selecting words that convey
       one's intention precisely without ambiguity and which present ideas in an
       order or arrangement that is meaningful and logical.

    4. WRITTEN COMMUNICATION SKILLS: ability to prepare reports or other
       written material for use by others which is organized, clear, persuasive, or
       otherwise meets its intended purpose.

    5. FACILITIES PLANNING SKILLS: knowledge of the space and facilities
       requirements of different types of operations and maintenance requirements of
       facilities and equipment.

    6. PURCHASING SKILLS : knowledge of trends and pending changes in price
       or availability of supplies, equipment, or services required by the
       organization.
MINIMUM QUALIFICATIONS

Graduate of a four-year college and completion of all course work constitution a basis for
a major in business administration, management science, or related field . At least three
years practical work experience at a policy making level , preferably with government
related projects programs. Must be bondable.


Employment Classification: Exempt
                                   MEMORANDUM OF UNDERSTANDING
                                       STATEWIDE EXPENSES



      PARTIES AND CONSIDERATION:

         This Memorandum of Understanding is entered into between Mississippi Center for Legal
  Services, Inc., a Mississippi not-for profit corporation, hereinafter MCLS, and North Mississippi
  Rural Legal Services, a Mississippi not-for-profit corporation hereinafter NMRLS. It is
  understood and agreed that certain statewide staff positions and expenses hereinafter listed are
  designated as "statewide expenses" and are jointly paid by both programs as hereinafter set out.

          The MS State Planning Body submitted a proposal to the Legal Services Corporation
  (LSe) i~ 2003 whicr proposed a two progr~rn ccnfiguration for Lse funded basic field programs
  in the State of MississippLThis two program statewide configuration is the basis for this
  agreement and the commitment by both programs to jointly pay the specified statewide expenses
  as hereinafter set out.

       NMRLS and MCLS shall invoice the other for payment of statewide expenses and submit
documentation consisting of pay records, time records, receipts for services and expenses,and
other documentation as necessary and required for expenditure of LSC funds.                                     I

                                                                                                   ..
 J.
               '.,   .. ;, ;   .
                                                 ,:   ' :



         The Term of this ~greement is November 1, 2011 through Decemb'er
                               ' .                     '           .
                                                                          3], 201 2~.'
                                                                             .'   .
                                                                                      .   '.   :



                                                                                                        " , '
                                                                                                                I
PURPOSES:

2.       . MCLS and NMRLS hereby agree to share the costs for statewide expenses which consist
           of:
       a). three(3) staff positions which are:
           Statewide Litigation Director;
           Statewide Resource Developer; and
           Statewide Network Administrator(technology).

       b).the following statewide telecommunications expenses:
              a). ACe Business - for the MPLS telecommunications lines at Batesville host site; and
              b). AirSpring • for PRJ monthly expense plus Call Center minutes.

3.     "(he positiollofState\Yide Litigation Director is currently filled .by a stllffperson located in
the Gultport office of MCLS and the Statewide Resource Developer is located 'in' the Jackson
offiteQ'fMCLS; and the Statewide Network Administrator is located in the Oxford office of
NMRLS.




                                      Attachment No. 3
 4.     NMRLS and MCLS hereby agree to jointly pay the aforesaid statewide expenses based
 upon the percentage of the poverty population within its service area based upon the most recent
 census figures as funding to the said NMRLS and MCLS is distributed by LSC. The current
 distribution ofLSC funding to Mississippi programs is 60% to MCLS and NMRLS is 40%. Thus,
 the aforesaid statewide expenses will be funded by NMRLS and MCLS with each program
 paying their share of 60% by MCLS and 40% by NMRLS.

 5. It is hereby mutually agreed that the aforesaid funding formula is tied to the LSC formula of
 funding to MS Legal Services programs as stated above, and when the LSC funding formula
 changes, MCLS and NMRLS will also change accordingly its payment of the aforesaid statewide
 expenses.

 6.     NMRLS and MCLS mutually agree that each program shall invoice the other on a monthly
 basis for its share of the statewide expenses as set out in paragraph number 4 above.

7. It is understood that NMRLS and MCLS will pay for the statewide expenses in whole or in
part out ofLSC funds. Thus, NMRLS and MCLS and the statewide staff will comply with all
applicable LSC Rules, Regulations, guidelines, directives, etc. which are currently in effect or
which are subsequently implemented during the term of this agreement.

8. All time spent by persons holding statewide positions or doing work charged as statewide
expenses covered under this agreement shall be recorded in the Kemp's Case Management
System.


INVOICES AND PAYMENTS:

9.     NMRLS and MCLS shall submit invoices and supporting documentation to each other's
       fiscal department on or before the 10'b following the month in which work is performed.
       MCLS and NMRLS shall pay the invoice within thirty (30) calendar days.

MODIFICATION:

10.    This Contract shall not be modified or amended in any respect except bia written
       agreement executed by both parties.

CONSTRUCTION:

11.    This Contract shall be construed under and governed by the laws of the State of
       Mississippi.

EFFECTIVE DATE:

12.   This Contract is effective on November 1. 20 II, or the date signed by both parties to this
      contract, whichever is the earliest date.




                                                                                                    . .1.
      The Parties hereto have executed this Contract in duplicate originals on the date
      hereinafter written.


NORTH MS RURAL LEGAL SERVICES               MISSISSIPPI CENTER FOR LEGAL SERVICES
5 County Road 1014                          I I I East Front Street
P.O. Box 767                                P.O. Drawer 1728
Oxford, MS 38655                            Hattiesburg, MS 39403-1728
662-234-8731                                601-545-2950




BY:

      Executive Director
                                            ~~~
                                            ExecuILve DlIector


                                            DATE: .-!,1.:.D+
                                                           .6L!!..'tub!....,_ __
              TRANSACTIONS INVOLVI NG EXECUTIVE STAFF EXPENSES



   a.) al l transacti ons involving travel advances, expense reimbursement, or other trave l
      related expense payments to th e Executive Director mu st receive prior approval of the
      Fiscal Manager or Litigation Director prior to issua nce of check( s) made payable to
      him/her.




   b.) th e Executive Director or any other signatory on NMRLS bank accounts cannot approve
      payments to themselves or sign checks payable to themselves.




 March 17, 2012
ENACTED




                  This supplemental document was
                  received by LSC OIG on March 28, 2012.
